U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael David McCall v. United States of America
S.Ct. No. 21-5501
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 20,
2021, and placed on the docket on August 26, 2021. The government’s response is due on
September 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5501
MCCALL, MICHAEL DAVID
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

